     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



October 1, 2010

Report Number: A-09-09-00087

Ms. Cindy Siljestrom
Chief Executive Officer
California Transplant Donor Network
1000 Broadway, Suite 600
Oakland, CA 94607

Dear Ms. Siljestrom:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of California Transplant Donor Network’s Reported
Fiscal Year 2007 Organ Acquisition Overhead Costs and Administrative and General Costs. We
will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(415) 437-8360, or contact James Kenny, Audit Manager, at (415) 437-8370 or through email at
James.Kenny@oig.hhs.gov. Please refer to report number A-09-09-00087 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Cindy Siljestrom


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF CALIFORNIA TRANSPLANT
  DONOR NETWORK’S REPORTED
        FISCAL YEAR 2007
  ORGAN ACQUISITION OVERHEAD
 COSTS AND ADMINISTRATIVE AND
         GENERAL COSTS




                       Daniel R. Levinson
                        Inspector General

                         October 2010
                         A-09-09-00087
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 or older, people under the age of 65 with certain disabilities,
and people of all ages with end-stage renal disease, which is permanent kidney failure requiring
dialysis or a kidney transplant. Section 1881 of the Act authorizes Medicare reimbursement for
dialysis, transplantation, and procurement of kidneys. The Centers for Medicare & Medicaid
Services (CMS) administers the Medicare program.

Organ procurement organizations (OPO) are not-for-profit organizations that are responsible for
procuring and preserving transplantable organs and transporting them to transplant centers.
Pursuant to section 1138(b)(1) of the Act, for organ procurement costs to be reimbursed under
Medicare, an OPO must be a “qualified organ procurement organization” as described in section
371(b) of the Public Health Service Act and meet several other statutory requirements.

An OPO may be independent or hospital-based. Independent OPOs work closely with donor
hospitals and transplant centers to facilitate organ donation and transplantation. CMS requires
independent OPOs to submit Medicare cost reports annually to determine the amounts payable
under Medicare associated with the procurement of kidneys. (Medicare does not reimburse
independent OPOs for the costs of procuring organs other than kidneys.) The cost report
includes direct costs, overhead costs, and administrative and general costs associated with organ
procurement. Overhead costs include costs for procurement coordinators, professional
education, public education, and organ placement. Administrative and general costs include
such costs as accounting and legal fees, office salaries and supplies, and travel and meetings.

The costs claimed in the cost report must be related to the care of beneficiaries; reasonable,
necessary, and proper; and allowable under Medicare regulations (42 CFR § 413.9(a), (b), and
(c)(3)). In addition, the OPO’s cost information must be accurate and in sufficient detail to
support payments made for services provided (42 CFR § 413.24(a) and (c)). The Medicare
Provider Reimbursement Manual (Manual) states that independent OPOs are reimbursed on the
basis of reasonable cost and requires them to use the policies contained in the Manual.

California Transplant Donor Network (CTDN), a federally designated independent OPO serving
counties in Northern and Central California and Northern Nevada, submitted to the Medicare
contractor its fiscal year (FY) 2007 Medicare cost report covering the period January 1 through
December 31, 2007. CTDN reported $10,926,155 of OPO overhead costs and $5,557,647 of
administrative and general costs, from which we judgmentally selected a total of $1,595,845 to
review.

OBJECTIVE

Our objective was to determine whether CTDN complied with Medicare requirements for
reporting selected OPO overhead costs and administrative and general costs in its FY 2007
Medicare cost report.



                                                 i
SUMMARY OF FINDINGS

CTDN did not fully comply with Medicare requirements for reporting selected OPO overhead
costs and administrative and general costs in its FY 2007 Medicare cost report. Of the
$1,595,845 of costs we reviewed, $1,428,781 was allowable. The remaining $167,064
represents $65,912 of unallowable costs and $101,152 of unsupported costs:

   •   Contrary to Federal requirements, CTDN reported $65,912 of costs that were not related
       to patient care or did not comply with other Medicare requirements and therefore were
       not allowable. This amount included costs incurred for donations and gifts, a retirement
       party, entertainment, lobbying, and meals. We estimated that Medicare’s share of the
       unallowable costs related to kidney procurement was $33,431.

   •   Contrary to Federal requirements, CTDN reported $101,152 of costs that were
       unsupported. For $1,984 of this amount, no documentation existed to support the
       reported costs. For the remaining $99,168, CTDN was unable to provide adequate
       documentation to support the allowability of the reported costs. Based on Federal
       regulations and the Manual, we considered the unsupported costs to be unallowable for
       Medicare reimbursement. We estimated that Medicare’s share of the unsupported costs
       related to kidney procurement was $51,304.

CTDN did not have procedures to ensure that all OPO overhead costs and administrative and
general costs reported in its Medicare cost report were allowable, supportable, and in compliance
with Medicare requirements. As a result, CTDN overstated its Medicare reimbursement in the
FY 2007 Medicare cost report by an estimated $84,735.

RECOMMENDATIONS

We recommend that CTDN:

   •   submit a revised FY 2007 Medicare cost report to the Medicare contractor to correct the
       estimated Medicare overstatement of $84,735 and

   •   develop and implement procedures to ensure that costs reported in future Medicare cost
       reports are allowable, supportable, and in compliance with Medicare requirements.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, CTDN agreed with the findings related to unallowable
lobbying and meal costs and unsupported costs. CTDN also agreed with the finding related to
the portion of entertainment costs incurred for alcoholic beverages. CTDN explained the
purposes of the costs incurred for donations and gifts and for the remaining entertainment costs
but did not explicitly disagree with those findings. However, CTDN disagreed with the finding
related to retirement party costs.




                                                ii
Regarding our first recommendation, CTDN stated that it will discuss the FY 2007 cost report
with CMS. Regarding our second recommendation, CDTN described corrective actions that it
had taken or planned to take.

CTDN’s comments are included as the Appendix. We excluded additional documentation that
CDTN provided because of its length.

Nothing in CTDN’s comments or additional documentation caused us to revise our findings.




                                              iii
                                                 TABLE OF CONTENTS

                                                                                                                                Page

INTRODUCTION...................................................................................................................1

          BACKGROUND ..........................................................................................................1
              Medicare Program .............................................................................................1
              Organ Procurement Organizations....................................................................1
              Medicare Reimbursement of Independent Organ Procurement
               Organizations .................................................................................................1
              Medicare Cost Reports ......................................................................................2
              California Transplant Donor Network ..............................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................3
               Objective ...........................................................................................................3
               Scope .................................................................................................................3
               Methodology .....................................................................................................3

FINDINGS AND RECOMMENDATIONS .........................................................................4

          UNALLOWABLE COSTS ..........................................................................................4
              Donations and Gifts ..........................................................................................5
              Retirement Party ...............................................................................................5
              Entertainment ....................................................................................................6
              Lobbying ...........................................................................................................6
              Meals .................................................................................................................6

          UNSUPPORTED COSTS ............................................................................................7

          CAUSE AND EFFECT OF UNALLOWABLE AND UNSUPPORTED
           COSTS REPORTED .................................................................................................8

          RECOMMENDATIONS ..............................................................................................8

          AUDITEE COMMENTS..............................................................................................8

          OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................9

OTHER MATTER..................................................................................................................9

APPENDIX

          AUDITEE COMMENTS




                                                                    iv
                                                 INTRODUCTION

BACKGROUND

Medicare Program

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 or older, people under the age of 65 with certain disabilities,
and people of all ages with end-stage renal disease (ESRD), which is permanent kidney failure
requiring dialysis or a kidney transplant. The ESRD Amendments of 1978, P.L. No. 95-292,
added to the Act section 1881, which authorizes Medicare reimbursement for dialysis,
transplantation, and procurement of kidneys. The Centers for Medicare & Medicaid Services
(CMS) administers the Medicare program.

Organ Procurement Organizations

Organ procurement organizations (OPO) are not-for-profit organizations that are responsible for
procuring and preserving transplantable organs and transporting them to transplant centers.
CMS certifies OPOs to recover or procure organs in CMS-defined exclusive geographic service
areas pursuant to section 371(b)(1)(F) of the Public Health Service Act. Section
1138(a)(1)(A)(iii) of the Act provides that a hospital must notify its designated OPO of potential
organ donors.

Pursuant to section 1138(b)(1) of the Act, for organ procurement costs to be reimbursed under
Medicare, an OPO must be a “qualified organ procurement organization” as described in
section 371(b) of the Public Health Service Act and meet several other statutory requirements.
Qualified OPOs have an agreement with the Secretary of Health & Human Services to be
reimbursed under Title XVIII of the Act for the procurement of kidneys.

An OPO may be independent or hospital-based. Independent OPOs work closely with donor
hospitals and transplant centers to facilitate organ donation and transplantation. Hospital-based
OPOs operate within a hospital’s administrative and financial structure.

Medicare Reimbursement of Independent Organ Procurement Organizations

OPOs do not bill Medicare directly for organ procurement services. For kidneys, the donor
hospital providing the organ bills the OPO its customary charge. 1 The OPO provides the kidney
to the certified transplant center, which pays the OPO and reports the kidney procurement cost in
its Medicare cost report. The OPO submits its own Medicare cost report, in which it reports the
cost of procuring the kidney and the payment it received from the certified transplant center.
Based on the cost report, Medicare Part A makes a retroactive adjustment directly with the
independent OPO to reconcile any overpayment or underpayment resulting from the total
payments that the independent OPO received from transplant centers for kidneys furnished for
transplantation.


1
    Donor hospital charges are not limited to reasonable costs and are not regulated by Medicare.


                                                            1
Medicare Cost Reports

CMS requires independent OPOs to submit Medicare cost reports annually so that it can properly
determine the amounts payable under Medicare associated with kidney procurement. The cost
report, which is divided into multiple worksheets, summarizes the OPO’s financial records and
statistical data to determine the amount claimed for Medicare reimbursement. That amount is
made up of direct costs, overhead costs, and administrative and general costs associated with
organ procurement:

    •    Direct costs include, for example, costs for operating rooms, anesthesiology, respiratory
         therapy, intensive care units, and donor tissue typing.

    •    Overhead costs include, for example, costs for procurement coordinators, professional
         education, public education, and organ placement.

    •    Administrative and general costs include, for example, costs for accounting and legal
         fees, office salaries and supplies, and travel and meetings.

Pursuant to the cost finding methodology in the Medicare Provider Reimbursement Manual
(Manual), part II, section 3311, independent OPOs allocate overhead costs to the specific types
of organs based on the total number of organs procured. After overhead costs are allocated to
each organ, independent OPOs allocate administrative and general costs to the specific types of
organs based on the total accumulated direct and overhead costs.

The cost report must provide a complete accounting of costs incurred by the OPO in providing
covered services, the total number of Medicare beneficiaries who received those services, and
any other data necessary to enable the Medicare contractor 2 to determine the reasonable cost of
covered services provided to Medicare beneficiaries (42 CFR § 413.200(e)).

The costs claimed in the cost report must be related to the care of beneficiaries; reasonable,
necessary, and proper; and allowable under Medicare regulations (42 CFR § 413.9(a), (b), and
(c)(3)). In addition, the OPO’s cost information must be accurate and in sufficient detail to
support payments made for services provided (42 CFR § 413.24(a) and (c)). The Manual, part I,
section 2773, states: “[I]ndependent OPOs are reimbursed on the basis of reasonable cost. In
determining the reasonable cost of … services and cost reporting requirements, the policies
contained in the Provider Reimbursement Manual (PRM) are to be used.”

California Transplant Donor Network

California Transplant Donor Network (CTDN), incorporated in 1987 as a nonprofit corporation,
is a federally designated independent OPO serving people in Northern and Central California and

2
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries to Medicare administrative contractors (MAC)
between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for jurisdictions
where the MACs are not fully operational, the fiscal intermediaries continue to process claims. For purposes of this
report, the term “Medicare contractor” means the fiscal intermediary or MAC, whichever is applicable.


                                                         2
Northern Nevada. Its corporate office is located in Oakland, California. CTDN submitted its
fiscal year (FY) 2007 (January 1 through December 31, 2007) Medicare cost report to the fiscal
intermediary, Riverbend Government Benefits Administrator (Riverbend), which was
responsible for reviewing the annual Medicare cost reports submitted by the 50 independent
OPOs nationwide. 3

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CTDN complied with Medicare requirements for
reporting selected OPO overhead costs and administrative and general costs in its FY 2007
Medicare cost report.

Scope

CTDN reported $10,926,155 of OPO overhead costs and $5,557,647 of administrative and
general costs in its FY 2007 Medicare cost report. For our review, we judgmentally selected
$1,595,845 of these costs. We limited our review of CTDN’s internal controls to the procedures
that CTDN used to accumulate and report OPO overhead costs and administrative and general
costs in its cost report.

We conducted our audit from June 2009 to May 2010 and performed fieldwork at CTDN’s
corporate office in Oakland, California.

Methodology

To accomplish our objective, we:

      •    reviewed applicable Federal laws, regulations, and guidance;

      •    obtained CTDN’s FY 2007 Medicare cost report from Riverbend and reviewed audit
           documentation from prior fiscal intermediary audits;

      •    obtained an understanding of CTDN’s procedures for reporting OPO overhead costs and
           administrative and general costs in its Medicare cost reports;

      •    verified that the total costs reported in CTDN’s FY 2007 Medicare cost report reconciled
           to its audited financial statements;

      •    reconciled the OPO overhead costs and administrative and general costs reported in
           CTDN’s FY 2007 Medicare cost report to its detailed general ledger;




3
    Effective August 3, 2009, Cahaba Government Benefit Administrators, LLC, is the MAC for independent OPOs.


                                                        3
    •   reconciled the organ statistics reported in the FY 2007 Medicare cost report to CTDN’s
        organ donor log, which included the number of organs procured for each type of organ
        and the transplant hospital receiving the organ(s);

    •   judgmentally selected for testing $1,595,845 of OPO overhead costs and administrative
        and general costs reported in CTDN’s FY 2007 detailed general ledger, based on whether
        the costs were material in amount or considered to be high risk;

    •   reviewed supporting documentation for the judgmentally selected costs and determined
        the allowability of those costs;

    •   interviewed CTDN officials and personnel;

    •   estimated that the percentage of OPO overhead costs and administrative and general costs
        allocated to kidneys in CTDN’s FY 2007 Medicare cost report was 50.72 percent; 4 and

    •   estimated the Medicare overpayment related to kidney procurement by applying the
        estimated percentage of 50.72 to the unallowable and unsupported OPO overhead and
        administrative and general costs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

CTDN did not fully comply with Medicare requirements for reporting selected OPO overhead
costs and administrative and general costs in its FY 2007 Medicare cost report. Of the
$1,595,845 we reviewed, $1,428,781 was allowable. The remaining $167,064 represents
$65,912 of unallowable costs and $101,152 of unsupported costs. CTDN did not have
procedures to ensure that all OPO overhead costs and administrative and general costs reported
in its Medicare cost report were allowable, supportable, and in compliance with Medicare
requirements. As a result, CTDN overstated its Medicare reimbursement in the FY 2007
Medicare cost report by an estimated $84,735.

UNALLOWABLE COSTS

CTDN reported $65,912 of OPO overhead costs and administrative and general costs that were
not related to patient care or did not comply with other Medicare requirements and therefore
were not allowable. The estimated Medicare overpayment for the unallowable costs related to
kidney procurement was $33,431. The table shows details of the unallowable costs.

4
 We calculated this percentage by averaging the 49.80 percent of overhead costs and 51.64 percent of
administrative and general costs allocated to kidneys in the cost report.


                                                        4
                                        Unallowable Costs

                                              Unallowable      Estimated Medicare
                 Cost Category                  Costs             Overpayment

       Donations and Gifts                       $33,411               $16,946
       Retirement Party                           18,967                 9,620
       Entertainment                               6,019                 3,053
       Lobbying                                    5,775                 2,929
       Meals                                       1,740                   883
              Total                              $65,912               $33,431

Donations and Gifts

The Manual, part I, section 2102.3, states that the costs of gifts or donations are not related to
patient care and therefore are not allowable in computing reimbursable costs. Section 2105.7
states: “Costs incurred by providers for gifts or donations to charitable, civic, educational,
medical or political entities are not allowable.”

Contrary to the Manual, CTDN reported $33,411 of OPO overhead costs related to donations and
gifts. This amount consisted of $31,400 incurred for donations made to charitable entities and
$2,011 incurred for gifts to non-employees. For example, CTDN reported $5,000 for
sponsorship of an annual gala and jazz show. Highlights of the gala included a reception,
gourmet food and exotic drinks, and a jazz show. CTDN also reported $5,000 for its sponsorship
of the Rose Parade and $3,000 for a golf tournament that benefited a health foundation. The
estimated Medicare share of the unallowable costs related to kidney procurement was $16,946.

Retirement Party

The Manual, part I, section 2100, states: “All payments to providers of services must be based
on the reasonable cost of services covered under title XVIII of the Act and related to the care of
beneficiaries ….”

The Manual, part I, section 2102.3, defines costs not related to patient care as “costs which are
not appropriate or necessary and proper in developing and maintaining the operation of patient
care facilities and activities. … Such costs are not allowable … and include, for example: …
[c]ost of entertainment, including tickets to sporting and other entertainment events … and [c]ost
of travel incurred in connection with non-patient care related purposes.”

Contrary to Federal regulations (42 CFR § 413.9(a)) and the Manual, CTDN reported $18,967 of
OPO overhead costs and administrative and general costs for a retirement party. CTDN held the
retirement party for its former chief executive officer in June 2007. At the retirement party,
CTDN catered for 300 guests, including CTDN’s employees and their spouses, the board of
directors, the audit and finance committee, and transplant center officials. The estimated
Medicare share of the unallowable costs related to kidney procurement was $9,620.



                                                  5
Entertainment

The Manual, part I, section 2102.3, states that the costs of entertainment and alcoholic beverages
are not related to patient care and therefore are not allowable in computing reimbursable costs.
Further, section 2102.3 defines unallowable costs as “[c]ost of alcoholic beverages furnished to
employees or to others regardless of how or where furnished, such as cost of alcoholic beverages
furnished at a provider picnic or furnished as a fringe benefit ….”

The Manual, part I, section 2105.8, states: “Costs incurred by providers for entertainment,
including tickets to sporting or other events, alcoholic beverages, golf outings, ski trips, cruises,
professional musicians or other entertainers, are not allowable.”

Contrary to the Manual, CTDN reported $6,019 of OPO overhead costs and administrative and
general costs related to entertainment and alcohol. This amount consisted of $2,619 for
transportation and lodging for dancers for a donor family gathering, $2,337 for alcoholic
beverages purchased by CTDN personnel, $577 for a party held for individuals who were not
CTDN employees, and $486 for ushers’ services at the donor family gathering. The estimated
Medicare share of the unallowable costs related to kidney procurement was $3,053.

Lobbying

The Manual, part I, section 2139, states: “Provider political and lobbying activities are not
related to the care of patients. Therefore, costs incurred for such activities are unallowable.”
Further, section 2139.2, paragraph A, defines lobbying as “any activity whereby a directed effort
is made to influence legislation.” The Manual further states: “The policy applies whether the
lobbying involves Medicare activities or activities unrelated to Medicare and whether the
provider lobbies with its own employees or engages others, directly or indirectly, to lobby on its
behalf.”

Contrary to the Manual, CTDN reported $5,775 of administrative and general costs related to
lobbying. CTDN removed $23,925 of the $29,700 incurred for lobbying; however, it failed to
remove the remaining $5,775. The estimated Medicare share of the unallowable costs related to
kidney procurement was $2,929.

Meals

The Manual, part I, section 2105.2, states: “The cost of meals for other than provider personnel,
whether served in a cafeteria, coffee shop, canteen, etc., is unallowable under the program
because it is not related to patient care. (See §2102.3) Providers must maintain adequate cost
data in order to determine the cost of these meals.”

Contrary to the Manual, CTDN reported $1,740 of OPO overhead costs for meals provided to
donor hospitals’ staff and others who were not CTDN employees without documenting valid
business purposes for the expenditures. The estimated Medicare share of the unallowable costs
related to kidney procurement was $883.




                                                  6
UNSUPPORTED COSTS

The Manual, part I, section 2300, states: “Providers receiving payment on the basis of
reimbursable cost must provide adequate cost data based on financial and statistical records
which can be verified by qualified auditors.” Further, section 2304 of the Manual states:

       Cost information as developed by the provider must be current, accurate, and in
       sufficient detail to support payments made for services rendered to beneficiaries.
       This includes all ledgers, books, records and original evidences of cost (purchase
       requisitions, purchase orders, vouchers, requisitions for materials, inventories,
       labor time cards, payrolls, bases for apportioning costs, etc.), which pertain to the
       determination of reasonable cost, capable of being audited.

Contrary to Federal regulations (42 CFR § 413.24) and the Manual, CTDN reported $101,152 of
OPO overhead costs and administrative and general costs that were unsupported. For $1,984 of
this amount, no documentation existed to support the reported costs. For the remaining $99,168,
CTDN was unable to provide adequate documentation to support the allowability of the reported
costs.
Of the $99,168 of inadequately supported costs, CTDN provided only credit card statements for
$33,006 and did not provide adequate supporting documentation for $66,162 incurred for various
expenditures.
CTDN provided only credit card statements for $33,006. CTDN provides corporate credit cards
to a limited number of managers and certain other employees. Some of those credit cards’
charges were processed for payment without supporting documentation that provided
justification for the costs or identification of business purposes. These charges included airfares,
hotels, meals at various restaurants, and miscellaneous charges. For example, CTDN was unable
to provide an invoice or itemized receipt to support $3,398 listed on its June 2007 credit card
statement for costs incurred at a hotel in Emeryville, California.
For the remaining $66,162, CTDN did not provide adequate supporting documentation, such as
itemized bills indicating the types of expenditures incurred, the purpose of the expenditures, or
the benefits received in exchange for its sponsorships and donations. This amount consisted of
$27,400 incurred for sponsorships and donations, $25,773 incurred for hotel banquet charges,
$9,719 incurred for various meals, and $3,270 incurred for miscellaneous expenditures.

The following are two examples of CTDN’s unsupported costs:

   •   CTDN was unable to adequately support $12,264 of hotel banquet charges incurred for a
       quarterly staff meeting held at a hotel in Berkeley, California. The hotel bill that CTDN
       provided as support did not itemize the costs of the meeting, specifically the costs of food
       and beverages. In addition, CTDN did not provide sufficient documentation of the
       purpose of the meeting, such as an agenda and list of attendees, to demonstrate that the
       costs were reasonable, necessary, and proper.

   •   CTDN was unable to adequately support $10,500 paid to a minor league baseball team.
       According to CTDN, the payments benefited CTDN by maximizing public awareness


                                                 7
       and encouraging donor registry signups. However, the baseball team’s invoice only
       identified the payments as being for 2007 season sponsorship of the team and did not
       itemize the benefits received or business services purchased. In addition, CTDN did not
       provide sufficient documentation to support the benefits that it claimed it had received
       from sponsoring the team.

Based on Federal regulations and the Manual, we considered the unsupported costs to be
unallowable for Medicare reimbursement. The estimated Medicare share of the unsupported
costs related to kidney procurement was $51,304.

CAUSE AND EFFECT OF UNALLOWABLE AND UNSUPPORTED COSTS
REPORTED

CTDN reported unallowable and unsupported costs because it did not have procedures to ensure
that all OPO overhead costs and administrative and general costs were allowable, supportable,
and in compliance with Medicare requirements. As a result, CTDN overstated its Medicare
reimbursement in the FY 2007 Medicare cost report by an estimated $84,735.

RECOMMENDATIONS

We recommend that CTDN:

   •   submit a revised FY 2007 Medicare cost report to the Medicare contractor to correct the
       estimated Medicare overstatement of $84,735 and

   •   develop and implement procedures to ensure that costs reported in future Medicare cost
       reports are allowable, supportable, and in compliance with Medicare requirements.

AUDITEE COMMENTS

In its comments on our draft report, CTDN agreed with the findings related to unallowable
lobbying and meal costs and unsupported costs. CTDN also agreed with the finding related to
the portion of entertainment costs incurred for alcoholic beverages. CTDN explained the
purposes of the costs incurred for donations and gifts and for the remaining entertainment costs
but did not explicitly disagree with those findings. However, CTDN disagreed with the finding
related to retirement party costs. CTDN stated that, based on the executive’s length of service
and the role the executive played in founding the organization, it believes that the retirement
party costs were reasonable.

Regarding our first recommendation, CTDN stated that it will discuss the FY 2007 cost report
with CMS. Regarding our second recommendation, CDTN described corrective actions that it
had taken or planned to take.

CTDN’s comments are included as the Appendix. We excluded additional documentation that
CDTN provided because of its length.




                                                8
OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in CTDN’s comments or additional documentation caused us to revise our findings.
Federal regulations (42 CFR § 413.9(a)) state that payments “must be based on the reasonable
cost of services covered under Medicare and related to the care of beneficiaries.” (Emphasis
added.) Federal regulations (42 CFR § 413.9(c)(3)) also state that “[t]he determination of
reasonable cost … must be based on cost related to the care of Medicare beneficiaries.”
Moreover, under the specific cost reimbursement principles in the Manual, part I, section 2102.3,
costs are not related to patient care if they are “not appropriate or necessary and proper in
developing and maintaining the operation of patient care facilities and activities.” Costs incurred
for the retirement party were not related to patient care and therefore were not allowable.

                                            OTHER MATTER

Federal regulations (42 CFR § 486.324(a)) require OPOs to have an advisory board effective
July 31, 2006. 5 Specifically, 42 CFR § 486.324(a) states that while an OPO may have more than
one board, the OPO must have an advisory board to recommend policies for the procurement of
organs. In addition, 42 CFR § 486.324(c) states that the advisory board “may not serve as the
OPO’s governing body or board of directors.”
CTDN had a governing board of directors; however, during 2007, CTDN did not have a separate
advisory board to recommend organ procurement policies, as required by Federal regulations.
To comply with Federal requirements, CTDN created an advisory board in 2008.




5
 71 Fed. Reg. 30982, 31008 (May 31, 2006), which added 42 CFR § 486.324 as part of the revision of subpart G,
effective July 31, 2006.


                                                       9
APPENDIX
                                                                                                                       Page I of3
                                APPENDIX: AVDITEE COMMENTS



Transplant
       Ne~ork         1"1y 29. 2010


                      Ms, Lori A. Ahlmitnd


      '-"­            Regional Inspector General for Audit Servltes
                      Department of Heal t h & Human Services
                      Office of Inspector Gene~1
                      otfa 01 Audit ServiceS, Reslon IX
                      90 - i'" Street. Suite 3·650
     . . ..S70.9400
                      San Fraoosco, CA 94103


                      Report Number. A-()9..0!HX)()87

                      Our MS. Ahlstrand:

                      Thank you for the opportun.ty to respond to the above refereoced drilh report OIG

         .....

     ..... 0 ..."


         ......,


                      identified $65,912 of unallowable costs and $101,152 01 unsupported costs In response
                      to the .. bove referenced report, California Transplant Donor Networlc wishes to submit

      ...,,,,.'" 

       I "". B'
                      Ihe followln8 comments for Vllur con$IdCr;luon .


        ~""
..
 MCIOUTO OfflCl
              ~
                      UNAllOWABLE COSTS .. $65,912

                      Donat ions & Gifts - the purpose of the ellpenSH In this category is to support the
                      mission 01 commUnity outre"ch and publIC education on donation. In order to
                      panklpale In community evelllS that provide a forum for community oulreKh and
                      educatioll, CTDN is oftell asked to contnbute to the cost of the event as furntlllg for
                      these types of activi t ies is e_tremely limited. Volunteers are recruited as addltiollal
                      resources for tne evellu CTDN occasIOnally Idelltlties a small way to thank those who
                      volunteer to support thiS IH'rt of our mission, nel'lCe the glfts to non-employees.

                      Ret irement Party - DIG determined the 518,%7 e_pellse for the rellremelll of the CEO
                      who had served the orlilnililtlon 20 years unrtasollable Based on the length of service
                      and the role t his   e~eculive   played III fourldilll thiS orgamtation, CTDN believes the con
                      10   be reasonable However. glvell the unusual circumstances around t hiS even t, CTDN
                      does not plan to sPD"sor such an event ill the future

                      EnterUlnment

                               The Donor family Gatherins is an annual evelll that CTDN sponsors 10 thank
                               dOllor famiJ1es and allow transplant reclplems to tell their stories and   e~press
                                thanu as well. The event provides a forum for family support alld education on
                               donatioll (52,61!h5486)
                                                                                                               Page 2 of3




 · ::;1 r",o
Tronsp-Iont
      [) ,             The party for volunteers fulfilled the same purpo5e as described above
   Network             regarding glflS to non-employees            ($577)

                       eTDN concurs thilt $2,337 spent for akohol is unililowable

               lobbylns - CTON concurs that the additional $5,775 Incurred for lobbying Is
               un.llow.ble

               Meals - CTDN concurs that $1,740 with the OIG determination that the bUSiness
               purposes of these costs are not document~ and are therefore unallow.ble




               UNSUPPORTED COSTS - $1Ol.l52

               While ClDN was able to provide documentation supporting $99,168 of the reported
               cosu and believes all the costs .r. lealtimate, OIG has determined the documentation
               provided Is dOt!:s not adequately support the costs. ClDN concurs wIth OIG's findins




               RECOMMENDATIONS

                       1)    ~bmittal   of revtSed FY 2007 cost report - further conversations bet_en
                            CTON and Medicare regardins the 2007 cost report are fonhcomins

                       2) 	 Development.nd Implementation of procedures to ensure repo"~ costs
                            ue In comphillnce with Medicare I't'Qulrements - Billsed on conversations
                            with the auditors iIInd the   e~lt   Inl ervlew, CTDN began a corrective action
                            pia" Immediately after the on·slte audit took place In 2009.

                            August 10, 2009 • siliff was notified by the Vil:e President of Finance that the
                            e~peflSe   reportl"8 policy mU5t be followed

                            AUlust 16, 2009 · '" follow-up em~IIIIO naff OUtlined changes that would be
                            Included In policy reVIsion and asked staff to comply with those changes
                            Immediately

                            Sep tember - October, 2009 - Vil:e PreSident 01 Finance performed weekly
                            revIew of ali employee e.pense reports 10 further define weaknesses1n
                            process and training

                            November 24 and December 24, 2009 - updales to staff on the progress of
                            compliance wilh e.pense reponing pohcy

                            January 2010 - Implementation of updal ed policy In.cludlng lrainlng and
                            effKtlveness Check completed by all staH
                                                                                                                  Page 3 of3




 l.-ollfcrnlO
TranSRlant
    Ne~o rk
                             April 2010 -Internal audit function created to review expense reports and
                             credit Cilrd documenta tion. This plan Includes follow up reports to
                             management to Include tracking and trending of exceptions to compliarlce.
                             Ongoing IlOncompliance Issues wIll be addressed in staff performance
                             evaluations.

                             July 2010 - effective September 1. 2010 CTON wirr discontinue paying the
                             corporate credll card invoice directly. Staff will be notified of the pending
                             change during the lit51 week of July. New credit cards will be issued by the
                             hilllk. St.. ff will be blUed at the home address, will pay the bank directly alld
                             will be reimbursed by CTON ollly with complete alld proper documentation
                             submitted on a timely basis for approval and reimbursement.

                        As you see from the continued wort in this area, CTON takes improvement of
                        expense reporting seriously. In addition to the steps outlined above, CTON has
                        included continuous compliance and improvement as one of Its 2011 gOitls.

                Thank you for the opportunity to comment on this repon. We appreciate your review
                of our plan for Improvement and look forward to any feedback you mal' wish to offer



                Sincerely,

                /Cindy Siljeslrom/. CEO

                California Transplant Donor Network




                EnclOsures
